No. ____
IN THE

Supreme Court of the United States
William J. Cost and William J. Cost, Jr.,
Petitioners
-vBorough of Dickson City, Michael Ranakoski
and Michael McMorrow
Respondents

On Petition For Writ of Certiorari
To the United States Court of Appeals
for the Third Circuit

PETITION FOR WRIT OF CERTIORARI

Cynthia L. Pollick, Esq., LL.M., M.A.
Counsel of Record
THE EMPLOYMENT LAW FIRM
PO Box 757
Clarks Summit PA 18411
(570) 510-7630
pollick@lawyer.com

QUESTION PRESENTED
Whether the court of appeals erred when it held exigent
circumstances existed based solely on a 911 call about a domestic
disturbance from a disgruntled neighbor that resulted in Respondents
kicking down the door to the family home and entering without a warrant
when no noise was heard at the doorstep and there were no occupants
who needed emergency assistance inside?

i

PARTIES TO THE PROCEEDING
Petitioners are William J. Cost and William J. Cost, Jr.. The
respondents to the proceeding whose judgment is sought to be reviewed
are the Borough of Dickson City, Michael Ranakoski and Michael
McMorrow.

ii

STATEMENT OF RELATED PROCEEDINGS
• Cost, et al. v. Borough of Dickson City, et al., 18-cv-1494; 18-cv-1510,
U.S. District Court for the Middle District of Pennsylvania.
Judgment entered October 15, 2020.
• Cost, et al. v. Borough of Dickson City, et al., 20-3120, U.S. Court of
Appeals for the Third Circuit. Judgement entered June 3, 2021.
• Cost, et al. v. Borough of Dickson City, et al., 20-3120, U.S. Court of
Appeals for the Third Circuit. Order entered July 6, 2021.

iii

TABLE OF CONTENTS
QUESTION PRESENTED……………………………………………….

i

PARTIES TO THE PROCEEDING…………………………………….. ii
STATEMENT OF RELATED PROCEEDINGS ……………………… iii
TABLE OF CONTENTS……………………………………………......... iv
TABLE OF AUTHORITIES……………………………………………... vi
PETITION FOR A WRIT OF CERTIORARI………………………….. . 1
OPINIONS BELOW………………………………………………………. . 1
JURISDICTION……………………………………………………………. 1
CONSTITUTIONAL PROVISION INVOLVED………………………. 1
INTRODUCTION…………………………………………………………... 2
STATEMENT OF THE CASE……………………………………………. 2
REASONS FOR ALLOWANCE OF THE WRIT..…………………….. 5
I.

THERE IS A CIRCUIT CONFLICT OVER THE QUESTION
PRESENTED…………………………………………………….. 6

II.

THE DECISION BELOW IS INCORRECT………………….. 8

CONCLUSION……………………………………………………………… 11

iv

APPENDIX
Opinion, U.S. Court of Appeals for the Third Circuit,
June 3, 2021…………………………………………App. A 1-12
Memorandum Opinion, U.S. District Court for the Middle District
of Pennsylvania, October 15, 2021……………….App. B 1-31
Order, U.S. Court of Appeals for the Third Circuit,
July 6, 2021…………………………………………..App. C 1-2

v

TABLE OF AUTHORITIES
CASES
Bd. of Educ. v. Pico,
457 U.S. 853 (1982)………………………………………………. 10
Caniglia v. Storm,
141 S. Ct. 1596 (2021)………………………..…………………... 6
Florida v. Jardines,
569 U.S. 1 (2013)………………………………………………….. 5
Lange v. California,
141 S. Ct. 2011 (2021)……………………………………………. 5,8
Storey v. Taylor,
696 F.3d 987 (10th Cir. 2012)…………………………………… 7-8
United States v. Davis,
290 F.3d 1239 (10th Cir. 2002)…………………………………… 5,9
United States v. Timmann,
741 F.3d 1170 (11th Cir. 2013)………………………………….. 7
Walters v. Freeman,
572 Fed. Appx. 723 (11th Cir. 2014)……………………………. 7
CONSTITUTION
U.S. Const. amend IV…………………………………………………… 2

vi

PETITION FOR WRIT OF CERTIORARI
Petitioners respectfully request a writ of certiorari to review the
judgment of the United States Court of Appeals for the Third Circuit.
OPINIONS BELOW
The decision of the court of appeals is reported at 2021 U.S. App.
LEXIS 16570 and is reprinted in the Appendix to the Petition (App. A, at
1-12). The court of appeals denied a petition for rehearing on July 6, 2021.
(App. C, at 1-2). The district court’s opinion granting summary judgment
to respondents is reported at 2020 U.S. Dist. LEXIS 190847 and
reprinted at App. B, at 1-31.
JURISDICTION
The court of appeals issued its decision on June 3, 2021. (App. A,
at 1-12). The court of appeals denied a petition for rehearing on July 6,
2021. (App. C, at 1-2). This Court has jurisdiction under 28 U.S.C §
1254(1).
CONSTITUTIONAL PROVISION INVOLVED
“The Fourth Amendment provides: [1] “The right of the people to be
secure in their persons, houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no Warrants shall issue,
1

but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things
to be seized.” U.S. Const. amend IV.
INTRODUCTION
Faced with a new emerging assault on constitutional rights, courts
must ensure constitutional rights are protected, and the most sacred one,
home ownership, must not fall to overzealous law enforcement. There is
no more important right than one’s sanctity in his home. The one place
where the government cannot enter without a warrant unless exigent
circumstances exist. The government cannot ruin a man’s castle based
on a 911 call from a disgruntled neighbor.
STATEMENT OF THE CASE
Petitioners, William J. Cost, Sr. and Jr., brought this action under
42 U.S.C.S. § 1983 for constitutional claims of unlawful search and
seizure, excessive force, assault and battery, false arrest/false
imprisonment,

malicious

prosecution

and

inadequate

training/supervision. On September 3, 2016, Respondent Ranakoski
kicked down the door to the family home of Petitioners after arriving on
scene and hearing nothing coming from the home once on the doorsteps.
2

The disgruntled neighbor across the street called 911 and the 911
incident report noted the call as “male female verbal dome[stic]”. (Dkt.
No. 15 at A233). There were no reports of anyone reporting or saying
“help” when the officers arrived on the scene. (Dkt. No. 14 at A85).
The Respondents did not interview the 911 caller or take any
statements from the disgruntled neighbors on the day in question. (Dkt.
No. 14 at A86). They relied entirely on the 911 call information and their
own observations once arriving at the family home. The facts within the
affidavit submitted by the disgruntled neighbors were not known to the
officers at the time of entering the home without a warrant. (Dkt. No. 14
at A86).
Once inside the residence, the Respondents found the Petitioners
sitting around the dining room table. None of the occupants of the home
needed any type of emergency assistance. (Dkt. No. 14 at A85). The
Respondents ordered the Petitioners to their knees and handcuffed them.
Petitioner William Cost, Sr., was arrested and taken in the police cruiser
in handcuffs to the processing center in Lackawanna County by
Respondent Ranakoski and charged with disorderly conduct, which was
ultimately dismissed.
3

Respondents did not interview any witnesses, including the 911
disgruntled neighbor or her husband on the day in question. (Dkt. No. 14
at A86). Respondents did not have any information about any prior police
calls to the home when Officer Ranakoski kicked down the door to the
family home. (Dkt. No. at A71).
The court of appeals decision affirmed the district court’s granting
summary judgment to Respondents based on the conclusion that exigent
circumstances existed allowing Respondents to break down the family
door, handcuff and arrest the Petitioners in their own home without a
warrant. The court of appeals decision is in direct conflict with the
decisions of the Tenth and Eleventh Circuits that do not allow law
enforcement to enter a home without a warrant based solely on a 911 call
for a domestic disturbance.
This petition provides the Court the perfect vehicle to resolve the
conflict between the circuits related to when law enforcement can enter
a home without a warrant based exigent circumstances of providing
emergency aid and responding to a domestic call.
The petition should be granted.

4

REASONS FOR ALLOWANCE OF THE WRIT
The decision below shows a circuit conflict over the question
presented that warrants this Court’s review. Unlike the Tenth and
Eleventh Circuits, the Third Circuit allows law enforcement to enter a
home without a warrant based on a 911 domestic call when there are no
indicia of an urgent, ongoing emergency. The Eleventh and Ten Circuit
require some evidence of either an emergency or violence. “… [G]ranting
unfettered permission to officers to enter homes, based only upon a
general assumption domestic calls are always dangerous, would violate
the Fourth Amendment.” United States v. Davis, 290 F.3d 1239, 1244
(10th Cir. 2002)(emphasis in original).
“[W]hen it comes to the Fourth Amendment, the home is first
among equals.” Florida v. Jardines, 569 U. S. 1, 6, 133 S. Ct. 1409, 185
L. Ed. 2d 495 (2013). At the Amendment’s “very core,” we have said,
“stands the right of a man to retreat into his own home and there be free
from unreasonable government intrusion.” … The Amendment thus
“draw[s] a firm line at the entrance to the house.” Lange v. California,
141 S. Ct. 2011, 2018 (2021)(cleaned up). “We have thus recognized a few

5

permissible invasions of the home and its curtilage.” Caniglia v. Strom,
141 S. Ct. 1596, 1599 (2021).
The decision below is incorrect since law enforcement cannot enter
a home without permission when there is no evidence of imminent harm
based on a call from 911 of a domestic disturbance from a disgruntled
neighbor. This Court has “… repeatedly ‘declined to expand the scope of
. . . exceptions to the warrant requirement to permit warrantless entry
into the home.’” Caniglia, 141 S. Ct. at 1600.
I.

THERE IS A CIRCUIT CONFLICT OVER THE QUESTION
PRESENTED
The Third Circuit held the 911 domestic call presented sufficient

evidence of exigent circumstances to allow the officers to kick a door open
to gain access to the home even though there was no noise coming from
the house at the time Respondents were at the door. (App. A, at 8-9). The
Third Circuit reasoned that when the officers knocked on the home doors
and no one responded in ten to fifteen minutes, they “remained concerned
that ‘there was somebody in that home that needed aid.”. (App. A, at 9).
Erroneously, the Third Circuit believed the officers were aware of
prior calls to the home; however, neither of the officers testified to the
same. (Dkt. No. 14 at A71). After kicking down the door, no one in the
6

home needed assistance or emergency care. (Dkt. No. 14 at A85). The
Petitioners were sitting around the dining room table. (Dkt. No. 14 at
A114). Nothing in the record shows there was a chaotic scene or evidence
of violence allowing Respondents to enter the home without a warrant.
In contrast the Eleventh Circuit requires much more before law
enforcement can enter a home without a warrant in reliance on giving
emergency-aid. Specifically, in the Timmann case, the Eleventh Circuit
noted, “… these circumstances have in common the indicia of an urgent,
ongoing emergency, in which officers have received emergency reports of
an ongoing disturbance, arrived to find a chaotic scene, and observed
violent behavior, or at least evidence of violent behavior.” United States
v. Timmann, 741 F.3d 1170, 1179 (11th Cir. 2013); See also, Walters v.
Freeman, 572 Fed. Appx. 723 (11th Cir. 2014)(finding no indicia of an
emergency that required a warrantless entry).
Likewise, the Tenth Circuit requires more than a 911 domestic call
to allow law enforcement to enter a home without a warrant. “A report of
a domestic argument—standing alone—does not demonstrate exigent
circumstances per se.” Storey v. Taylor, 696 F.3d 987, 994 (10th Cir.
2012). In that case, the Tenth Circuit noted that “[a]bsent additional facts
7

indicating a greater possibility of violence, a loud argument between
spouses does not suffice to justify a warrantless seizure within the home.”
Id. at 997 (emphasis added).
Given this Court’s guidance in Lange and Caniglia, the Circuit
conflict should be resolved in favor of the decisions rendered by the Tenth
and Eleventh Circuit since as this Court recognized the home is most
important property right provided by the Fourth Amendment. “Or again:
“Freedom” in one’s own “dwelling is the archetype of the privacy
protection secured by the Fourth Amendment”; conversely, “physical
entry of the home is the chief evil against which [it] is directed.” … The
Amendment thus “draw[s] a firm line at the entrance to the house.”
Lange v. California, 141 S. Ct. 2011, 2018 (2021)(cleaned up).
II.

THE DECISION BELOW IS INCORRECT
This Court’s review is also warranted because the decision below is

wrong. Petitioners presented a case that should have warranted
summary judgment in their favor since the sanity of the home demanded
that a police officer not kick down the door to a family home when
absolutely no noise was heard when the officers arrived at the doorstep

8

of the home even though Respondents had been dispatched to the home
based on a 911 domestic disturbance.
To allow police officers to kick down a door to a family home when
there is no evidence of a chaotic scene or injury is wrong and this Court
should teach the lower courts to hold law enforcement accountable for
illegally entering a home and causing damage. “The ‘physical entry of the
home is the chief evil against which the wording of the Fourth
Amendment is directed.” Davis, 290 F.3d at 1242.
Alternatively, at the very least, Petitioners raised an issue of
material fact about whether exigent circumstances existed to justify
Respondents kicking down the door to the family home since the wifemother denied stating “stop, stop” and the Respondents admitted that
the voice was from a female and not the children. (Dkt. No. 14 at A96).
The only female in the home was the wife-mother, and she denied that
she ever yelled “stop, stop” that Respondents claim occurred. (Dkt. No.
15 at A170). Consequently, if hearing “stop, stop” is sufficient to break
down the door to a family home, there is a disputed issue of material fact
that provides Petitioners with their day in court.

9

“The existence of exigent circumstances is a mixed question of law
and fact.” Davis, 290 F.3d at 1241. As this Court has held, “[b]ut that
evidence at most creates a genuine issue of material fact on the critical
question of the credibility of petitioners' justifications for their decision:
On that issue, it simply cannot be said that there is no genuine issue as
to any material fact.” Bd. of Educ. v. Pico, 457 U.S. 853, 875 (1982).

10

CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should
be granted.

Respectfully submitted,
Cynthia L. Pollick, Esq., LL.M., M.A.
Counsel of Record
THE EMPLOYMENT LAW FIRM
PO Box 757
Clarks Summit PA 18411
(570) 510-7630
pollick@lawyer.com

Date: August 31, 2021

Counsel for Petitioners
11

APPENDIX A

Case: 20-3120

Document: 44

Page: 1

Date Filed: 06/03/2021

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______________
No. 20-3120
______________
WILLIAM J. COST; WILLIAM J. COST, JR.,
Appellants
v.
BOROUGH OF DICKSON CITY; MICHAEL RANAKOSKI; MICHAEL
MCMORROW
______________
Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. Civil Nos. 3-18-cv-01494, 3-18-cv-01510)
District Judge: Honorable Malachy E. Mannion
______________
Submitted under Third Circuit L.A.R. 34.1(a)
May 27, 2021
______________
Before: GREENAWAY, JR., SHWARTZ, Circuit Judges, and ROBRENO, District
Judge. *
(Filed: June 3, 2021)
______________
OPINION **
______________

The Honorable Eduardo C. Robreno, United States District Judge for the Eastern
District of Pennsylvania, sitting by designation.
**
This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7
does not constitute binding precedent.
*

Case: 20-3120

Document: 44

Page: 2

Date Filed: 06/03/2021

SHWARTZ, Circuit Judge.
Plaintiffs William Cost, Sr. and William Cost, Jr. brought claims under 42 U.S.C.
§ 1983 and Pennsylvania state law against Defendants Officer Michael Ranakoski,
Officer Michael McMorrow, and the Borough of Dickson City arising from the forced
entry into Plaintiffs’ home following a neighbor’s 911 call and Cost, Sr.’s subsequent
arrest for disorderly conduct. Because exigent circumstances justified the officers’ entry,
probable cause supported Cost, Sr.’s arrest, and reasonable suspicion supported Cost,
Jr.’s brief detention, we will affirm the District Court’s order granting summary judgment
for Defendants.
I
A
On the evening of September 3, 2016, Renee Giedieviells, who lived across the
street from Plaintiffs, heard yelling from Plaintiffs’ home. After hearing a woman yell
“Help!”, Ms. Giedieviells called 911 to report the situation and said that she believed
children were inside. 1 App. 357. The Dickson City Police Department dispatched
Ranakoski and McMorrow to Plaintiffs’ home. When the officers arrived at the home,
they alleged that they could hear yelling, including a woman screaming “stop” several
times. 2 App. 201. The home became quiet when the officers approached the front door.

Michael Giedieviells provided an affidavit stating that he also heard a woman
yelling “Help!” and “Stop it!” after his wife called 911. App. 368.
2
The District Court determined that it was undisputed that the Officers heard a
female voice scream “stop” when they arrived at the house. App. 28. In doing so, the
District Court noted that Cost, Sr.’s wife’s affidavit, in which she stated that she did not
yell “stop” or “help” on that day, did not refute the Officers’ testimony because the
1

2

Case: 20-3120

Document: 44

Page: 3

Date Filed: 06/03/2021

The officers knocked and announced themselves at the front and side doors several
times over the course of the next ten to fifteen minutes. Receiving no response,
McMorrow contacted Police Chief Michael Resetar and obtained permission to force
entry into Plaintiffs’ home. The officers entered and found Plaintiffs at a table close to
the door.
The officers handcuffed Plaintiffs and Ranakoski swept the home to check for any
possible threats. Ranakoski found Cost, Sr.’s wife, Heather Rought, upstairs with two
children and brought them downstairs. Rought told McMorrow that there was a loud
argument between Cost, Sr. and their daughter regarding her cell phone.
Cost, Jr. provided his identification to Ranakoski, who then uncuffed him. Cost,
Sr. refused to provide his name, so Ranakoski brought him to the Lackawanna County
Processing Center for identification and issued him a citation for disorderly conduct
pursuant to 18 Pa. Cons. Stat. § 5503(a)(4). The citation was ultimately dismissed
because Ranakoski did not appear at the hearing.

parties agree the fight was between Cost, Sr. and his daughter, not his wife. App.
28. Further, the District Court also determined that Cost, Sr.’s testimony that he did not
hear anyone yelling when the police arrived does not rebut the Officers’ testimony
because “Cost, Sr.’s testimony means only that he did not hear the shouting from his own
house—not that the shouting did not occur.” App. 29. We need not decide whether the
allegation that the Officers heard yelling upon arrival is a disputed fact because this fact
is not material. See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986) (“Only
disputes over facts that might affect the outcome of the suit under the governing law will
properly preclude the entry of summary judgment.”). Exigent circumstances existed
regardless of whether the Officers heard yelling upon their arrival at the house.
3

Case: 20-3120

Document: 44

Page: 4

Date Filed: 06/03/2021

B
Cost, Sr. and Cost, Jr. filed separate complaints against Defendants, alleging
violations of the Fourth Amendment under 42 U.S.C. § 1983 and state law. 3 The District
Court sua sponte consolidated the cases. 4
Plaintiffs moved for summary judgment on their Fourth Amendment search and
seizure claims and Defendants moved for summary judgment on all claims. In
connection with their summary judgment motion, Defendants attached affidavits from
Renee and Michael Giedieviells, which Plaintiffs moved to strike under Rule 37 because
Defendants produced them after the close of discovery and did not identify the
Giedieviells as witnesses during discovery. The District Court “decline[d] to strike the

Cost, Sr. brought the following claims: (1) unlawful search and seizure in
violation of the Fourth and Fourteenth Amendments against all Defendants; (2) excessive
force in violation of the Fourth Amendment against all Defendants; (3) state law assault
and battery against Ranakoski; (4) false arrest, false imprisonment, and malicious
prosecution against all Defendants under both the Fourth Amendment and state law; and
(5) Fourth Amendment failure to train and inadequate supervision against Dickson City.
Cost, Jr.’s complaint contained the same causes of action, except it contained no
malicious prosecution claims.
4
The District Court did not abuse its discretion by consolidating the cases. Rule
42 provides that “[i]f actions before the court involve a common question of law or fact,
the court may . . . consolidate the actions.” Fed. R. Civ. P. 42(a)(2). Rule 42 “confers
upon a district court broad power, whether at the request of a party or upon its own
initiative, to consolidate causes for trial as may facilitate the administration of justice.”
Ellerman Lines, Ltd. v. Atl. & Gulf Stevedores, Inc., 339 F.2d 673, 675 (3d Cir. 1964);
see also Hall v. Hall, 138 S. Ct. 1118, 1131 (2018) (“District courts enjoy substantial
discretion in deciding whether and to what extent to consolidate cases.”). Plaintiffs’
complaints involved common questions of law and fact and thus judicial economy
favored consolidation. Moreover, Plaintiffs have not identified any prejudice resulting
from consolidation other than a vague allegation of “factual spill-over” because Cost, Jr.
“was not officially charged with disorderly conduct while Cost, Sr. was.” Appellants’ Br.
at 23. This potential prejudice could be cured by a jury instruction. Accordingly,
consolidation under Rule 42 was proper.
3

4

Case: 20-3120

Document: 44

Page: 5

Date Filed: 06/03/2021

affidavits . . . for the reasons set forth in Plaintiffs’ motion,” App. 44, because (1)
Plaintiffs were not surprised, since Cost, Sr.’s deposition testimony indicated he was
aware of Ms. Giedieviells’s identity; (2) there was no evidence of bad faith, since
Defendants’ counsel immediately informed Plaintiffs of the affidavits after they were
procured; (3) the Giedieviellses’ testimony was “critical” to the case; and (4) allowing the
affidavits would not disrupt trial preparations, App. 44-45.
The District Court, however, struck the affidavits without prejudice because they
were not made “under penalty of perjury,” as required by United States ex rel. Doe v.
Heart Solution, PC, 923 F.3d 308, 315 (3d Cir. 2019). The District Court allowed
Defendants to cure the deficiency by submitting compliant affidavits, which they did. 5

The District Court acted within its discretion in denying Plaintiffs’ motion to
strike. Rule 26(a)(1) requires the disclosure of “the name . . . of each individual likely to
have discoverable information—along with the subjects of that information.” Fed. R.
Civ. P. 26(a)(1)(A)(i). When Rule 26’s requirements are not met, district courts may
exclude evidence on a motion to strike under Rule 37. See Fed. R. Civ. P. 37(c)(1).
“[T]he exclusion of critical evidence is an extreme sanction, not normally to be imposed
absent a showing of willful deception or flagrant disregard of a court order by the
proponent of the evidence.” In re Paoli R.R. Yard PCB Litig., 35 F.3d 717, 791-92 (3d
Cir. 1994) (quotation marks and citation omitted). Here, the Giedieviellses’ affidavits
could not reasonably have surprised or prejudiced Plaintiffs. While Renee Giedieviells
was incorrectly identified as “Renee Getwell” in the 911 record and the Police Incident
Report produced during discovery, Cost, Sr. testified that he knew “Renee Getwell” was
the neighbor across the street who called 911. App. 108. Additionally, Plaintiffs did not
produce any evidence of bad faith on the part of Defendants in not providing these
affidavits during discovery. Finally, because we decided Heart Solution after Defendants
submitted the Giedieviellses’ affidavits but before the District Court ruled on the motion
to strike, the Court fairly allowed Defendants to cure the Heart Solution issue so that the
“critical” information in the affidavits could be considered at summary judgment. App.
45.
5

5

Case: 20-3120

Document: 44

Page: 6

Date Filed: 06/03/2021

The District Court thereafter granted Defendants’ summary judgment on
Plaintiffs’ claims of unlawful search and seizure, false arrest and imprisonment, and Cost,
Sr.’s claim of malicious prosecution, because the 911 call and the shouts the officers
heard presented exigent circumstances that permitted their warrantless entry into
Plaintiffs’ home. The Court found that these facts, together with Rought’s confirmation
that there had been a loud fight in the house between Cost, Sr. and his daughter, provided
reasonable suspicion to detain Cost, Jr., and probable cause to arrest Cost, Sr. because the
facts were “sufficient to warrant a person of reasonable caution to conclude that Cost, Sr.
. . . engag[ed] in fighting in such a manner that recklessly caused public annoyance or
alarm,” in violation of Pa. Cons. Stat. § 5503(c). App. 25-26.
Plaintiffs appeal. 6
II 7
To state a claim for relief under § 1983, “a plaintiff must demonstrate the
defendant, acting under color of state law, deprived him or her of a right secured by the

The District Court also granted Defendants’ motion for summary judgment on
Plaintiffs’ excessive force and municipal liability claims under Monell v. Department of
Social Services, 436 U.S. 658 (1978), and declined to exercise supplemental jurisdiction
over Plaintiffs’ state law claims. Because Plaintiffs make no arguments concerning these
issues in their opening brief, Plaintiffs have waived their right to appeal these rulings.
See Kost v. Kozakiewicz, 1 F.3d 176, 182 (3d Cir. 1993) (holding that where appellant
fails to raise an issue in its opening brief, “the appellant normally has abandoned and
waived that issue on appeal and it need not be addressed by the court of appeals”).
7
The District Court had jurisdiction under 28 U.S.C. §§ 1331 and 1367. We have
jurisdiction under 28 U.S.C. § 1291. We review de novo a district court’s order granting
summary judgment. Andrews v. Scuilli, 853 F.3d 690, 696 (3d Cir. 2017). Summary
judgment is appropriate where “there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
6

6

Case: 20-3120

Document: 44

Page: 7

Date Filed: 06/03/2021

Constitution or the laws of the United States.” Kaucher v. Cnty. of Bucks, 455 F.3d 418,
423 (3d Cir. 2006) (citation omitted). Accordingly, to evaluate Plaintiffs’ claims in the
context of a motion for summary judgment, we must determine whether there are
disputed issues of material fact that, if found for Plaintiffs, would show they were
deprived of a constitutional right. See id. Plaintiffs bring the following Fourth
Amendment claims against Defendants: unlawful search and seizure, false arrest, false
imprisonment, and malicious prosecution. As explained below, Plaintiffs have not shown
that Defendants violated their rights.
Plaintiffs’ unlawful search claims fail if an exception to the warrant requirement
permitted the search. See United States v. Coles, 437 F.3d 361, 365 (3d Cir. 2006)
(“Warrantless searches and seizures inside someone’s home . . . are presumptively
unreasonable [under the Fourth Amendment] unless . . . probable cause and exigent
circumstances exist to justify the intrusion.” (emphasis omitted)). Plaintiffs’ unlawful
seizure, false arrest, false imprisonment, and malicious prosecution claims fail if
Defendants had probable cause to believe that a crime was being committed. See James
v. City of Wilkes-Barre, 700 F.3d 675, 680 (3d Cir. 2012) (“To state a claim for false
arrest under the Fourth Amendment, a plaintiff must establish . . . that the arrest was
made without probable cause.”); Zimmerman v. Corbett, 873 F.3d 414, 418 (3d Cir.
2017) (“To prevail on [a] malicious prosecution claim under § 1983, [a plaintiff] must
establish that . . . the defendant[s] initiated the proceeding without probable cause.” (third

7

Case: 20-3120

Document: 44

Page: 8

Date Filed: 06/03/2021

alteration in original) (citation omitted)). 8 We will first examine whether an exception to
the warrant requirement permitted the officers to enter Plaintiffs’ home, and then we will
address whether the officers had probable cause to believe that a crime was being
committed.
A
Police officers may enter a home without a warrant under exigent circumstances.
See Brigham City v. Stuart, 547 U.S. 398, 403 (2006) (“[L]aw enforcement officers may
enter a home without a warrant to render emergency assistance to an injured occupant or
to protect an occupant from imminent injury.”). Exigent circumstances exist where there
is “danger to the lives of officers or others.” Coles, 437 F.3d at 366. “We evaluate
whether exigent circumstances existed by an objective standard; the subjective intent of
the officer is irrelevant.” United States v. Mallory, 765 F.3d 373, 383 (3d Cir. 2014).
Exigent circumstances justified the officers’ warrantless entry into Plaintiffs’
home. The 911 call indicated that there was a “male female verbal dome[stic]” dispute at
Plaintiffs’ home and that children were there and possibly crying. App. 233-34.
Ranakoski and McMorrow testified that there was no yelling when they reached the door

As previously noted, Cost, Jr. did not bring a malicious prosecution claim, as he
was not charged with any crime. Additionally, because he was never placed under arrest,
his false imprisonment claim requires only that he was detained without reasonable
suspicion that a crime was committed. See Gwynn v. City of Phila., 719 F.3d 295, 304
n.4 (3d Cir. 2013). Because reasonable suspicion is a “less demanding” standard than
probable cause, United States v. Ritter, 416 F.3d 256, 263 n.7 (3d Cir. 2005), our
probable cause analysis suffices for the reasonable suspicion required as to Cost, Jr.
8

8

Case: 20-3120

Document: 44

Page: 9

Date Filed: 06/03/2021

of the home. 9 The officers knocked and announced their presence at both the front and
side doors for several minutes, but they received no response and remained concerned
that “there was somebody in that home that needed aid.” App. 67. They relayed these
concerns to Chief Resetar, who also believed that exigent circumstances existed.
Considering the totality of these circumstances, Ranakoski and McMorrow “reasonably
. . . believe[d] that someone [was] in imminent danger,” so their entry into Plaintiffs’
home was justified without first obtaining a warrant. Couden v. Duffy, 446 F.3d 483,
496 (3d Cir. 2006) (quotation marks and citation omitted); see also United States v.
Black, 482 F.3d 1035, 1040 (9th Cir. 2007) (noting that “the exigencies of domestic
abuse cases present dangers that . . . may override considerations of [Fourth Amendment]
privacy”); United States v. Rohrig, 98 F.3d 1506, 1522 (6th Cir. 1996) (explaining that
“the governmental interest in immediately abating . . . loud and disruptive noise in a
residential neighborhood is sufficiently compelling to justify warrantless intrusions under
some circumstances,” including a domestic disturbance “for an extended period of time
without serving any apparent purpose”); United States v. Brown, 64 F.3d 1083, 1086 (7th
Cir. 1995) (observing “outcries would justify entry”); cf. Georgia v. Randolph, 547 U.S.
103, 118 (2006) (“No question . . . reasonably could be [raised] about the authority of the
police to enter a dwelling to protect a resident from domestic violence[.]”). Because
exigent circumstances justified the officers’ entry and sweep of the premises, Plaintiffs’
Fourth Amendment unlawful search claims fail.

McMorrow had also previously been to Plaintiffs’ home in response to a report
of a domestic dispute.
9

9

Case: 20-3120

Document: 44

Page: 10

Date Filed: 06/03/2021

B
The existence of probable cause defeats Plaintiffs’ unlawful seizure, false arrest,
false imprisonment, and malicious prosecution claims.
Probable cause exists if, “at the moment the arrest was made . . . the facts and
circumstances within [the officers’] knowledge and of which they had reasonably
trustworthy information were sufficient to warrant a prudent man in believing that [the
suspect] had committed or was committing an offense.” Wright v. City of Phila., 409
F.3d 595, 602 (3d Cir. 2005) (alterations in original) (quoting Beck v. Ohio, 379 U.S. 89,
91 (1964)). Probable cause “does not require that the officer have evidence sufficient to
prove guilt beyond a reasonable doubt,” Zimmerman, 873 F.3d at 418 (quotation marks
and citation omitted), or “that officers correctly resolve conflicting evidence or that their
determinations of credibility, were, in retrospect, accurate,” Dempsey v. Bucknell Univ.,
834 F.3d 457, 467 (3d Cir. 2016) (citation omitted). In this context, “we view all such
facts and assess whether any reasonable jury could conclude that those facts, considered
in their totality in the light most favorable to the nonmoving party, did not demonstrate a
‘fair probability’ that a crime occurred.” Id. at 468.
“Whether any particular set of facts suggest that an arrest is justified by probable
cause requires an examination of the elements of the crime at issue.” Wright, 409 F.3d at
602. Cost, Sr. was charged with disorderly conduct. Under Pennsylvania law, “[a]
person is guilty of disorderly conduct if, with intent to cause public inconvenience,
annoyance or alarm, or recklessly creating a risk thereof, he . . . creates a hazardous or
physically offensive condition by any act which serves no legitimate purpose of the
10

Case: 20-3120

Document: 44

Page: 11

Date Filed: 06/03/2021

actor.” 18 Pa. Cons. Stat. § 5503(a)(4). “Public” means “affecting or likely to affect
persons in a place to which the public or a substantial group has access . . . [including]
any neighborhood.” Id. § 5503(c).
Here, Ranakoski and McMorrow had probable cause to believe that a crime was
occurring when they arrived at Plaintiffs’ home. The 911 call indicated that there was a
domestic dispute taking place which was loud enough to be heard across the street. This
conduct caused “public inconvenience, annoyance or alarm” and “serve[d] no legitimate
purpose.” 18 Pa. Cons. Stat. § 5503(a)(4). 10 Rought told the officers that Cost, Sr. was
loudly arguing with his daughter for about a half-hour regarding her cell phone, that she
brought the children upstairs “to get away from” him, and that she declined to answer the
door when the officers knocked because she did not want to leave her children alone
upstairs. App. 298. This information, coupled with the 911 call, the shouts for help the
officers heard, and Cost, Sr.’s refusal to supply his identification, provided a basis for a
reasonable police officer to conclude that the offense of disorderly conduct had been
committed. The presence of probable cause defeats Plaintiffs’ unlawful seizure, false
arrest, false imprisonment, and malicious prosecution claims. See Zimmerman, 873 F.3d
at 418 (malicious prosecution); James, 700 F.3d at 680 (false arrest and imprisonment);

After the officers forced entry, they detained Plaintiffs and conducted a security
sweep of the premises. The officers then reviewed Cost, Jr.’s identification and released
him from his handcuffs. These acts were reasonable and defeat Cost, Jr.’s claim of false
imprisonment. See, e.g., Adams v. Williams, 407 U.S. 143, 146 (1972) (“[B]rief
[detention] . . . to determine [a suspect’s] identity or to maintain the status quo
momentarily while obtaining more information[] may be most reasonable in light of the
facts known to the officer at the time.”).
10

11

Case: 20-3120

Document: 44

Page: 12

Date Filed: 06/03/2021

Coles, 437 F.3d at 365 (seizure). Therefore, the District Court properly granted summary
judgment in favor of Defendants.
III
For the foregoing reasons, we will affirm the District Court’s order granting
summary judgment for Defendants.

12

APPENDIX B

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 1 of 31

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
WILLIAM J. COST,

:

Plaintiff
v.
BOROUGH OF DICKSON CITY,
and MICHAEL RANAKOSKI,

:

CIVIL ACTION NO. 3:18-1494

:

(JUDGE MANNION)

:
:

Defendants
=======================================================
WILLIAM J. COST, JR.,

:

Plaintiff

:

v.

:

BOROUGH OF DICKSON CITY,
MICHAEL RANAKOSKI, and
MICHAEL McMORROW
Defendants

:
:
:

MEMORANDUM1
Presently before the court is a motion for partial summary judgment
filed by the plaintiffs William J. Cost, Sr. (“Cost, Sr.”) and William J. Cost, Jr.
(“Cost, Jr.”), (collectively, “Plaintiffs”), (Doc. 17), and a motion for summary
judgment filed by the defendants the Borough of Dickson City (“Dickson

1

By order dated July 31, 2018, this case was consolidated with Cost
v. Borough of Dickson City and Michael Ranakoski, No. 3:18-1510. (Doc. 3).

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 2 of 31

City”), Officer Michael Ranakoski, and Officer Michael McMorrow,
(collectively, “Defendants”), (Doc. 24). For the reasons set forth below,
Plaintiffs’ motion for partial summary judgment will be DENIED, and
Defendants’ motion for summary judgment will be GRANTED with respect to
the federal claims in Counts I, II, IV, V, and VI.

I.

BACKGROUND2
The suit stems from an incident that occurred on September 3, 2016.

At approximately 8:00 p.m., a neighbor of the Plaintiffs, Renee Giedieviells
reported hearing yelling, screaming, and arguing coming from Plaintiffs’
residence. Ms. Giedieviells also reported hearing a female screaming “Help!
Help!”, at which point she called 911. The police incident report indicated the
following: “male[/]female verbal dome[stic],” “children on scene someone is
crying,” “caller unkn[own] if weapons or not.” (Doc. 25-3, at 6). Officer
Ranakoski and Officer McMorrow (“the Officers”) of the Dickson City Police
Department responded to the call. When they arrived on scene, both Officers
reported hearing yelling and a female shouting “stop” inside the residence,
but everything became quiet when they approached the front door. The

These facts are derived from the parties’ statements of fact and the
record. The court only includes facts material to the issues in the case, and
it does not include legal conclusions.
-22

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 3 of 31

Officers knocked on the front and side door for several minutes and identified
themselves as the Dickson City Police; however, they received no response.
Officer Ranakoski testified that, despite not hearing anything from
inside the house, he “[a]bsolutely” believed someone was in need of help due
to details of the 911 call—in particular that children were screaming—and
because he heard a female yelling “stop.” Officer Ranakoski explained, “At
th[at] point we had to assume the worst. Somebody could have been tied up
and unconscious and unable to shout for help.” (Doc. 25-7, at 15).
While Officer Ranakoski continued to knock on the door, Officer
McMorrow phoned their chief of police seeking guidance. The chief agreed
that exigent circumstances existed and, “for the safety of the person that the
neighbor heard screaming, and the woman that we heard scream ‘stop,’” that
forced entry was “necessary to protect the people inside for their own well[]being.” (Doc. 25-7, at 11).
After knocking and announcing several more times and indicating that
they would force entry if they were not met at the door, Officer Ranakoski
forced the side door open. Upon entry, the officers observed both Cost, Sr.
and Cost, Jr. sitting at their kitchen table, at which point they ordered Plaintiffs
on their knees, and Officer Ranakoski handcuffed them and patted them
down.
-3-

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 4 of 31

One of the officers, though it is not clear who, went upstairs and
encountered Heather Rought (“Rought”), Cost, Sr.’s wife, as well as their tenyear-old son and fourteen-year-old daughter. Rought was brought downstairs
and Officer McMorrow interviewed her. Rought stated that Cost, Sr. and their
daughter had been arguing over a cell phone and, when police arrived, she
went upstairs with the two younger children. Rought stated she did hear the
Officers banging on the door, but she did not want to leave her children alone
upstairs. Rought acknowledged that the argument was loud and that it lasted
approximately thirty minutes; however, she attested that she personally
“never screamed ‘Help! Help!’ or “Stop! Stop!’ on 9/3/2016.” (Doc. 47, at 2).
Meanwhile, Plaintiffs were asked about their identities. Cost, Jr.
identified himself and was released from the handcuffs. Cost, Sr. refused to
identify himself and consequently was put in a police car to be transported to
the Lackawanna County Processing Center to be fingerprinted for a suspect
identification. After Officer Ranakoski conferred with Officer McMorrow and
he related what Rought told him about the fight, Cost, Sr., was placed under
arrest for disorderly conduct pursuant to 18 Pa.C.S. §5503(a)(4). Upon arrival
at the processing center, Cost, Sr. identified himself and was released. On
November 7, 2016, the citation was dismissed after Officer Ranakoski failed
to appear for the hearing.
-4-

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 5 of 31

Plaintiffs separately brought suit against Defendants, though their
complaints are nearly identical. In Count I, Plaintiffs allege an unlawful search
and seizure claim under the Fourth and Fourteenth Amendments against all
Defendants. In Count II, they allege a Fourth Amendment excessive force
claim against all Defendants. In Count III, they allege a state law assault and
battery claim against the Officers. 3 In Count IV, they allege a Fourth
Amendment and state law false arrest and false imprisonment claim against
all Defendants. In Count V, Cost, Sr. alone alleges a Fourth Amendment and
state law malicious prosecution claim against all Defendants. Finally, in
Count VI, Plaintiffs allege an inadequate supervision and training claim
against Dickson City.
On February 5, 2019, Plaintiffs filed their motion for partial summary
judgment, (Doc. 17), a statement of facts, (Doc. 18), and a brief in support,
(Doc. 22). Defendants filed an answer to the statement of facts, (Doc. 29),
and a brief in opposition, (Doc. 35). Plaintiffs filed a reply brief. (Doc. 40).
On February 19, 2019, Defendants filed their motion for summary
judgment, (Doc. 24), a statement of facts, (Doc. 25), and a brief in support,
(Doc. 39). Plaintiffs filed an answer to the statement of facts, (Doc. 43), and
a brief in opposition, (Doc. 46). Defendants filed a reply brief. (Doc. 48).

3

Cost, Sr.’s claim is against Officer Ranakoski only.
-5-

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 6 of 31

On February 20, 2019, Plaintiffs filed a motion to strike Defendants’
statement of facts because it included the affidavits of two neighbors, Renee
and Michael Giedieviells, who witnessed the events of September 3, 2016,
because Plaintiffs claimed they were not previously disclosed. By separate
memorandum and order, the court granted the motion to strike the affidavits
but permitted Defendants fourteen days to cure the deficiencies noted. (Doc.
49; Doc. 50).
Defendants did so by filing an amended statement of facts with
corrected affidavits on March 31, 2020. (Doc. 51). However, that same day,
Plaintiffs’ counsel filed a letter arguing that the affidavits “provide nothing to
assist the Court since neither new affidavit states that the information
personally known was given to any of the arresting police officers.” (Doc. 52).4
On April 3, 2020, Defendants filed a motion to strike the letter from Plaintiffs’
counsel, (Doc. 54), as well as a brief in support on April 16, 2020, (Doc. 55).

4

Plaintiffs also filed an answer to the amended statement of facts
objecting to both affidavits. (Doc. 53). Plaintiffs objected to Renee
Giedieviells’s affidavit, arguing that it is “meaningless on the issue of probable
cause and/or exigent circumstances” because she did does not attest that
she spoke to any of the Defendants on the night of the incident. (Doc. 53, at
1). Plaintiffs objected to the affidavit of Michael Giedieviells arguing, once
again, that he “was not disclosed during discovery,” and that the affidavit is
likewise meaningless. (Doc. 53, at 2).
-6-

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 7 of 31

Plaintiffs’ filed a brief in opposition, (Doc. 56), and Defendants filed a reply
brief, (Doc. 57).

II.

STANDARD
“Summary judgment is appropriate when, drawing all reasonable

inferences in favor of the nonmoving party, the movant shows that there is
no genuine dispute as to any material fact, and thus the movant is entitled to
judgment as a matter of law.” Minarsky v. Susquehanna Cty., 895 F.3d 303,
309 (3d Cir. 2018) (internal quotation marks omitted). “A dispute is genuine
if a reasonable trier-of-fact could find in favor of the non-movant, and material
if it could affect the outcome of the case.” Bradley v. West Chester Univ. of
Pa. State Sys. of Higher Educ., 880 F.3d 643, 650 (3d Cir.) (internal quotation
marks omitted), cert. denied, 139 S.Ct. 167 (2018). In considering a motion
for summary judgment, “the court need consider only the cited materials, but
it may consider other materials in the record.” Fed.R.Civ.P. 56(c)(3).

III.

DISCUSSION
A. Motion to Strike Plaintiff’s Counsel Letter
In this motion, Defendants argue that, because counsel’s letter contains

additional factual and legal argument independent of Plaintiffs’ brief in
opposition and response to the Defendants’ statement of facts, it is prohibited
-7-

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 8 of 31

under the Local Rules. In the alternative, Defendants ask that they be
permitted an opportunity to respond to the additional arguments.
Plaintiffs filed a brief in opposition, arguing that the letter is permissible
because, according to this court’s website, the undersigned judge allows
written correspondence from counsel via the court’s electronic filing system.
(Doc. 56). Defendants respond, arguing that a statement regarding the
court’s written communication preferences does not equate to a green light
for parties to add additional argument on a motion for summary judgment by
letter. (Doc. 57).
The court agrees with Defendants and will STRIKE counsel’s letter,
(Doc. 52), from the record. Aside from the fact that such a filing is not
authorized under either the Federal Rules of Civil Procedure or the Local
Rules, it is repetitious of the arguments previously set forth in Plaintiffs’ briefs.
See Fed.R.Civ.P. 12(f) (permitting the court to “strike from a pleading . . . any
redundant, immaterial, impertinent, or scandalous matter.”).

B. Motions for Summary Judgment and Partial Summary
Judgment
Plaintiffs have chosen to move for summary judgment by “Point”
instead of by “Count,” thus making it difficult for the court to ascertain which
Counts—and for which of the Plaintiffs—they seek the entry of judgment.
-8-

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 9 of 31

Nevertheless, upon close review, it appears that Plaintiffs seek summary
judgment as to both Plaintiffs on Counts I, IV, VI and for Cost, Sr. on Count
V. Because Defendants have moved for summary judgment on all Counts,
the court will analyze each Count individually and note the instances where
Plaintiffs also move for summary judgment.
Initially, however, the court notes that Plaintiffs bring their Count I
unlawful seizure and search claims against Defendants under both the
Fourteenth Amendment Due Process Clause and the Fourth Amendment,
alleging that their arrest and the use of force constituted a deprivation of due
process. Because the Fourth Amendment covers their stated claims,
Plaintiffs’ Fourteenth Amendment claims, as standalone claims, must be
dismissed under the “more-specific provision rule.” “Where a particular
Amendment provides an explicit textual source of constitutional protection
against a particular sort of government behavior, that Amendment, not the
more generalized notion of substantive due process, must be the guide for
analyzing the claims.” Albright v. Oliver, 510 U.S. 266, 273 (1994) (internal
quotation marks omitted). See also Lawson v. City of Coatsville, 42
F.Supp.3d 664, 675-76 (E.D.Pa. 2014) (“[W]here the Fourth Amendment
covers alleged misconduct—such as searches and seizures without
probable cause—a plaintiff’s claims must be analyzed under the Fourth
-9-

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 10 of 31

Amendment, not under the rubric of substantive due process.”). Accordingly,
Plaintiffs’ Count I claims under the Fourteenth Amendment are DISMISSED.

1. Count I: Unlawful Search and Seizure; Count IV: False
Arrest/False Imprisonment; Count V: Malicious Prosecution
Because the warrantless entry into the home and the arrest of Cost,
Sr. were supported by probable cause and the detention of Cost, Jr. by
reasonable suspicion, and because each of Plaintiffs’ Fourth Amendment
claims hinge on a lack of probable cause or reasonable suspicion, the entry
of summary judgment in favor of Defendants is appropriate on Counts I, IV,
and V.
“The threshold question for each of [Plaintiffs’] Fourth Amendment
claims [under §1983 for unlawful search and seizure, false arrest/false
imprisonment, and malicious prosecution] is whether [Defendants] had
probable cause to arrest [Cost, Sr.]”—or, in the case of Cost, Jr., reasonable
suspicion to detain him. Lawson, 42 F.Supp.3d at 673 (citing James v. City
of Wilkes-Barre, 700 F.3d 675, 680, 683 (3d Cir. 2012) “To establish a false
imprisonment or arrest claim, a detention must be unlawful, and to establish
a malicious prosecution claim, there must be an absence of probable cause
to arrest. Accordingly, probable cause defeats a claim for malicious
prosecution and for false imprisonment or arrest.” Sheedy v. City of
- 10 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 11 of 31

Philadelphia, 184 Fed.App'x 282, 284 (3d Cir. 2006) (internal citations
omitted). See also James, 700 F.3d at 680, 683 (lack of probable cause is
an element of a Fourth Amendment false arrest claim); Johnson v. Knorr,
477 F.3d 75, 81-82 (3d Cir. 2007) (lack of probable cause is an element of a
Fourth Amendment malicious prosecution claim); Groman v. Twp. of
Manalapan, 47 F.3d 628, 636 (3d Cir. 1995) (lack of probable cause is an
element of a Fourth Amendment false imprisonment claim based on
detention pursuant to an unlawful arrest); Henry v. United States, 361 U.S.
98, 102 (1959) (“[I]f an arrest without a warrant is to support an incidental
search, it must be made with probable cause.”).
“[A]n arrest requires probable cause.” Arditi v. Subers, 216 F.Supp.3d
544, 552 (E.D.Pa. 2016). “Probable cause to arrest exists when the facts and
circumstances within the arresting officer’s knowledge are sufficient in
themselves to warrant a reasonable person to believe that an offense has
been or is being committed by the person to be arrested.” Merkle v. Upper
Dublin Sch. Dist., 211 F.3d 782, 788 (3d Cir. 2000). See also Lawson, 42
F.Supp.3d at 673 (“An arrest was made with probable cause if ‘at the
moment the arrest was made . . . the facts and circumstances within [the
officers’] knowledge . . . were sufficient to warrant a prudent man in believing
that [the suspect] had committed or was committing an offense.’” (internal
- 11 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 12 of 31

quotation marks omitted)). “In conducting an inquiry into whether probable
cause to arrest existed, a court should consider the totality of the
circumstances presented, and ‘must assess the knowledge and information
which the officers possessed at the time of arrest, coupled with the factual
occurrences immediately precipitating the arrest.’” Price, 2016 WL 3876442,
at *5 (citing United States v. Stubbs, 281 F.3d 109, 122 (3d Cir. 2002)).
Further, “the probable cause standard does not turn on the actual guilt
or innocence of the arrestee, but rather, whether the arresting officer
reasonably believed that the arrestee had committed the crime.” Arditi, 216
F.Supp.3d at 552. See also Lawson, 42 F.Supp.3d at 674 (“In other words,
the constitutional validity of the arrest does not depend on whether the
suspect actually committed any crime.”).
Similarly, where a plaintiff’s detention is lawful because it is supported
by reasonable suspicion, he cannot succeed on a false arrest/false
imprisonment claim. See Gwynn v. City of Philadelphia, 719 F.3d 295, 304
n.4 (3d Cir. 2013) (noting that to succeed on a false imprisonment claim, a
plaintiff must show that the detention was unlawful); Waters v. Madson, 921
F.3d 725, 743 (8th Cir. 2019) (holding a plaintiff’s claim for false arrest was
properly dismissed where an officer temporarily detained the plaintiffs
pursuant to reasonable suspicion and therefore the officers “acted with
- 12 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 13 of 31

proper legal authority”). Reasonable suspicion “requires less than probable
cause, but there must be at least a minimal level of objective justification for
making the stop.” United States v. Whitfield, 634 F.3d 741, 744 (3d Cir. 2010)
(internal quotation marks omitted).
Therefore, if Defendants had probable cause (or reasonable suspicion
in the case of Cost, Jr.’s detention), “then no constitutional violation took
place [regarding Plaintiffs’ claims for false arrest/false imprisonment,
unlawful search and seizure, and malicious prosecution].” Lawson, 42
F.Supp.3d at 673. No doubt that, “[g]enerally, the question of probable cause
in a section 1983 damage suit is one for the jury,” which “is particularly true
where the probable cause determination rests on credibility conflicts.” Id.
(internal quotation marks omitted). “However, a district court may conclude
that probable cause exists as a matter of law if the evidence, viewed most
favorably to Plaintiff, reasonably would not support a contrary factual finding,
and may enter summary judgment accordingly.” Id. (internal quotation marks
omitted). It is the court’s function “to determine whether the objective facts
available to the officers at the time of arrest were sufficient to justify a
reasonable belief that an offense was being committed.” Price, 2016 WL
3876442, at *5 (internal quotation marks omitted).

- 13 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 14 of 31

As to the Plaintiffs’ claims of unlawful search and seizure of their
persons, they argue that neither of them should have been handcuffed or
arrested since “they had not committed in [sic] crime in the privacy of their
own home.” (Doc. 22, at 6). As to Cost, Jr., Plaintiffs emphasize that he was
not charged or cited with a crime, apparently in support of the argument that
his detention was illegal. As to Cost, Sr., Plaintiffs argue that because the
Officers only testified to hearing a female voice when they arrived on scene,
they did not have probable cause to arrest him for disorderly since they did
not personally hear Cost, Sr. yelling. Plaintiffs contend that, even if Officers
had heard Cost, Sr. from inside of his house, because he was speaking “in
the privacy of his own home,” this could not have formed the basis for
probable cause to arrest him on disorderly conduct because, “as a matter of
law, anything said in the home is not evidence that could be used against him
for the charge of disorderly conduct.” (Doc. 46, at 3).
In support of their argument that the conduct inside one’s home cannot
serve as the basis of a disorderly conduct charge, Plaintiffs rely on Groman
v. Township of Manalapan, 47 F.3d 628, 636 (3d Cir. 1995). There, the
plaintiff sued the police officers that arrested him for, among other things,
disorderly conduct after he was involved in a physical altercation with a police
officer inside of his home. The Third Circuit observed that the New Jersey
- 14 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 15 of 31

statute for disorderly conduct necessitated that the conduct occur in public
and, pursuant to New Jersey courts’ interpretation of the statute, one could
not be charged under it for conduct that took place on one’s own property. Id.
at 635-36.
Conversely, Defendants argue that the brief detention of Cost, Jr. was
reasonable in light of the circumstances, since he was only detained
momentarily to maintain the status quo while the Officers ascertained his
identity and determined whether any danger existed elsewhere in the
residence. Defendants point out that the Officers did not initially know who
was involved in the argument reported in the 911 call and therefore it was
reasonable for Cost, Jr. to be briefly detained in order to identify and question
him. Once Cost, Jr. revealed his identity and it was determined that he had
not committed any crime, Defendants note that his handcuffs were promptly
removed. Accordingly, Defendants argue that Cost, Jr.’s unlawful search and
seizure claim must fail because it was objectively reasonable to detain him
under the circumstances.
With respect to Cost, Sr., Defendants argue that probable cause
existed to arrest him for disorderly conduct in light of the undisputed fact that
Rought relayed to the Officers that Cost, Sr. had engaged in a loud argument
with his daughter for approximately 30 minutes, which continued until the
- 15 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 16 of 31

Officers approached the house, and because the argument annoyed and
alarmed Plaintiffs’ neighbors enough to seek police intervention. Defendants
assert that the fact Cost, Sr. was inside his residence is immaterial given that
his conduct affected the immediate neighborhood, including the Giedieviells
and other surrounding homes, which qualifies as affecting the public. See 18
Pa.C.S. §5503(c) (“[P]ublic” means affecting or likely to affect persons in a
place. . . includ[ing] . . . any neighborhood, or any premises which are open
to the public.”). Defendants argue that, under Plaintiffs’ reasoning, anything
a resident does in his home, without exception, could not qualify as disorderly
conduct regardless of its effect on the outside public. This, Defendants argue,
is contrary to the plain text of the statute, which states that fighting in a
manner that recklessly creates a risk of public annoyance or alarm
constitutes disorderly conduct.
Here, the court finds that the probable cause/reasonable suspicion
determination does not rest on credibility determinations and that, in viewing
the evidence in the light most favorable to Plaintiffs, no genuine dispute of
material fact exists as to whether the Officers, based upon the facts known
to them at the time, had reasonable suspicion to detain Cost, Jr. and
probable cause to arrest Cost, Sr.

- 16 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 17 of 31

As to Cost, Jr., the facts and reasonable inferences that the Officers
were presented with warranted reasonable suspicion that he committed a
crime which injured the female resident of the house and caused her to yell
“stop,” or that he posed a threat to the Officers’ safety. Cost, Jr.’s brief
detention was thus not violative of the Fourth Amendment. With respect to
the arrest of Cost, Sr., the objective facts available to the Officers at the time
of the arrest, including the 911 caller’s report of domestic dispute, Rought’s
statement that Cost, Sr. had been arguing with their daughter, and the yelling
that the Officers themselves heard upon arrival at the scene, “were sufficient
to warrant a prudent man in believing that [the suspect] had committed or
was committing an offense”—to wit, disorderly conduct. Beck v. Ohio, 379
U.S. 89, 91 (1964). Although Plaintiffs repeatedly argue that the Officers did
not testify to hearing Cost, Sr. yelling from inside of his home, there is no
requirement that an arresting officer personally witness the crime for which
he is arresting a suspect. See Dreibelbis v. Clark, __ Fed.App’x ___, 2020
WL 2185280, at *2 (3d Cir. May 6, 2020) (holding that a trooper had probable
cause to cite a defendant for disorderly conduct based upon reports from
witnesses that the defendant was yelling, shouting, and attempted to push
past a security guard); Wright v. City of Philadelphia, 409 F.3d 595, 601-02
(3d Cir. 2005) (“[A]ll interpretations of probable cause require a belief of guilt
- 17 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 18 of 31

that is reasonable, as opposed to certain.” (internal quotation marks
omitted)).
Finally, although Plaintiffs argue that, pursuant to Groman, it was per
se unreasonable to charge Cost, Sr. with disorderly conduct because his
conduct occurred inside of his home and not in “public,” Groman is
inapposite. Groman observed that “[a] disorderly conduct charge under [New
Jersey law] requires that the behavior have been in ‘public’” and, thus, the
plaintiff “could not have committed the offense . . . in his own home.” Id., 47
F.3d at 635 (quoting N.J. Stat. §2C:33-2).5,6

5

It appears that the plaintiff in Groman was charged under the
subsection of the New Jersey statute pertaining to “Offensive language,”
which specifically required that the conduct occur “in a public place.” N.J.
Stat. §2C:33-2(b).
6

Although Plaintiffs do not develop the argument, the court notes in
passing that, in a footnote, Groman cited Pennsylvania’s disorderly conduct
statute, suggesting that it too may require the conduct to be public. In doing
so, the court cited the Pennsylvania Superior Court case Commonwealth v.
Weiss, 490 A.2d 853 (Pa.Super.1985), wherein the court found that the
“public” requirement was not satisfied where the defendant screamed
epithets at police officers after they broke down her door to arrest her
husband. The Groman commentary on the Pennsylvania disorderly conduct
statute, however, is of little value in resolving the present issue of whether
the Officers possessed probable cause for several reasons. First, neither
party has addressed either Groman footnote or the Weiss case. Further, not
only was Groman’s footnote discussion of the statute dictum insofar as the
issue of its requirements were not before the court, but, significantly, Weiss,
as an intermediate Pennsylvania court decision, is not binding on federal
courts. Finally, it is noteworthy that Weiss presented a markedly different
factual scenario than the instant case. Whereas the Weiss defendant’s
- 18 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 19 of 31

Unlike that statute, nothing in Pennsylvania’s disorderly conduct
statute specifically requires that the suspect’s actions occur public. Instead,
it merely requires that a person, “with intent to cause public inconvenience,
annoyance or alarm, or recklessly creating a risk thereof, . . . engage[] in
fighting or threatening, or in violent or tumultuous behavior.” 18 Pa.C.S.
§5503(a). The statute further provides,
As used in this section the word ‘public’ means
affecting or likely to affect persons in a place to which
the public or a substantial group has access; among
the places included are highways, transport facilities,
schools, prisons, apartment houses, places of
business or amusement, any neighborhood, or any
premises which are open to the public.
18 Pa.C.S. §5503(c).
Here, the court concludes that there was sufficient probable cause to
support the arrest of Cost, Sr. for disorderly conduct. At the time of the arrest,
the Officers were aware that a neighbor reported a male/female domestic
fight at Plaintiffs’ house, they personally heard yelling coming from the house
upon arrival, and Rought confirmed that a loud fight had occurred between
Cost, Sr. and his daughter. This “reasonably trustworthy information [and]

disorderly conduct was directed at the police and was exclusively in
response to the police breaking down her door, Cost, Sr.’s disorderly conduct
occurred prior to the police’s arrival and, indeed, it is what caused neighbors
to call police to his residence in the first place.
- 19 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 20 of 31

circumstances within the [Officers’] knowledge,” would have been sufficient
to warrant a person of reasonable caution to conclude that Cost, Sr.
committed the offense of disorderly conduct—that is, engaging in fighting in
such a manner that recklessly caused public annoyance or alarm.
Accordingly, the court concludes that, as a matter of law, probable cause for
Cost, Sr.’s arrest existed.
As to the warrantless entry, Plaintiffs contend that there were no
exigent circumstances to justify the forced entry. Citing Rought’s affidavit that
she never screamed “help” or “stop,” Plaintiffs assert that when the Officers
arrived on scene, no one was screaming for help. As throughout their
briefing, Plaintiffs focus on the fact that Cost, Sr. was only charged with
disorderly conduct, a “minor summary offense,” which was later dropped.
(Doc. 46, at 7). Plaintiffs further argue, “Given the fact that the alleged crime
was minor and not a felony and there was no evidence on scene of any one
[sic] crying, blood [sic] or requesting assistance, there was no justification for
[Officer] Ranakoski to break down Plaintiffs’ home door.” (Doc. 46, at 7).
Thus, Plaintiffs frame the situation as one in which the Officers broke down
Plaintiffs’ door in order to arrest Cost, Sr. for the predetermined charge of
disorderly conduct despite knowing they lacked probable cause to do so.

- 20 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 21 of 31

Defendants, conversely, argue that the entry into Plaintiffs’ residence
was justified by exigent circumstances—to wit, in the context of responding
to a report of a domestic dispute, a woman was yelling “stop” when police
arrived on scene and all noise ceased when the Officers approached the
house, causing them to believe that someone inside was in immediate
danger. Defendants note that the evaluation of the legality of a warrantless
search must be made in the context of the totality of the circumstances and
cite the incident report which indicated that the 911 caller reported a
male/female domestic dispute with crying children.
“Warrantless searches and seizures inside someone’s home . . . are
presumptively unreasonable unless the occupants consent or probable
cause and exigent circumstances exist to justify the intrusion.” United States
v. Coles, 437 F.3d 361, 365 (3d Cir. 2006) (emphasis omitted). Whether
exigent circumstances justify a warrantless search or seizure is determined
from the totality of the circumstances, as they were reasonably known to, or
discoverable by, officers at the time of the entry. Parkhurst v. Trapp, 77 F.3d
707, 711 (3d Cir. 1996). This determination is made on a case-by-case basis
and focuses simply on what a reasonable, experienced police officer would
believe given the circumstances. United States v. Reed, 935 F.2d 641, 643

- 21 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 22 of 31

(4th Cir. 1991); United States v. Williams, 431 F.3d 1115, 1118 (8th Cir.
2005).
In defining exigent circumstances, the Supreme Court has identified
four circumstances that justify a warrantless intrusion into a person’s home:
(1) hot pursuit of a fleeing felon; (2) imminent destruction of evidence; (3) the
need to prevent a suspect’s escape; or (4) the risk of danger to the police or
other persons inside or outside the dwelling. See Minnesota v. Olson, 495
U.S. 91, 100 (1990).
Here, based upon the undisputed material facts of record, the court
agrees with Defendants that probable cause and exigent circumstances
supported the warrantless entry into Plaintiffs’ home. Once again, Officer
Ranakoski and Officer McMorrow both testified that they heard a female
screaming “stop” when they arrived at the house, and that the yelling ceased
when they approached the door. (Doc. 25-7, at 4; Doc. 25-8, at 4). Although
Plaintiffs attempt to contest this fact by citing to Rought’s affidavit wherein
she states she did not yell “stop” or “help,” as Defendants observe, the
Officers did not claim to know which of the female residents of the house

- 22 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 23 of 31

they heard yelling and, moreover, the parties agree the fight was between
Cost, Sr. and his daughter—not Rought.7
Furthermore, it is significant that these events took place in the context
of responding to a call for a domestic dispute. Plaintiff’s notion that the
Officers knew precisely what they would find upon entering the home in that
they knew they would find no one was injured or that they would ultimately
only arrest Cost, Sr. for disorderly conduct strains credulity. Plaintiffs cannot
reasonably deny that the police incident report indicated that the caller
reported a domestic dispute with children crying.8 (Doc. 25-3, at 5). Although

When asked about the Officers’ testimony that they heard a female
yelling, Cost, Sr. stated he did not hear anyone yelling “stop” or “help” after
police arrived. (Doc. 21, at 9). However, this likewise does not rebut the
Officers’ testimony since it does not put into dispute what the Officers heard.
Regardless of what Plaintiffs state they personally did or did not hear, the
fact remains that the Officers’ testified that they heard yelling and a female
shouting “stop” several times when they arrived at the residence. Thus, Cost,
Sr.’s testimony means only that he did not hear the shouting from his own
house—not that the shouting did not occur.
7

Although Plaintiffs deny this in their response to Defendants’
statement of facts on the basis that it is inadmissible hearsay, this argument
is meritless. (Doc. 43, at 6-7). First, the statements in the incident report are
not hearsay to the extent that they are being offered to show the effect on
the listeners—Officers Ranakoski and McMorrow. Moreover, even if it were,
“hearsay evidence proffered in support or opposition to summary judgment
may be considered if the out-of-court declarant could later present that
evidence through direct testimony, i.e., ‘in a form that would be admissible
at trial.’” Williams v. Borough of West Chester, 891 F.2d 458, 466 n.12 (3d
Cir. 1989).
- 23 8

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 24 of 31

Plaintiffs assert that the neighbor who made the 911 call was disgruntled, as
Plaintiffs themselves argue, the Officers did not speak with the Giedieviells
prior to making entry and there is no allegation that the Officers knew the
identity of the 911 caller upon responding to the call or that they were aware
of any previous issues between the Plaintiffs and the Giedieviells.
Plaintiffs additionally argue that exigent circumstances exist only when
there are signs of medical distress, loss of blood, or violence; however, they
are incorrect. “Exigent circumstances exist where officers reasonably . . .
believe that someone is in imminent danger,” which is what occurred here.
Couden v. Duffy, 446 F.3d 483, 496 (3d Cir. 2006) (internal quotation marks
omitted). Indeed, the Third Circuit has upheld a finding of exigent
circumstances where police officers testified to observing “what they
believed to be underage drinking and violation of a noise ordinance.” See
Noone v. City of Ocean City, 60 Fed.App’x 904, 910 (3d Cir. 2003) (emphasis
added). The court held that “[t]he governmental interest in abating these
illegal activities justified warrantless entry into [the plaintiff’s] property” and,
accordingly, summary judgment in favor of the defendant police officers was
warranted.
Finally, Plaintiffs argue that the Officers lacked probable cause
because the Officers did not speak with the Giedieviells on the night of the
- 24 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 25 of 31

incident and, thus, what the Giedieviells heard is irrelevant since they did not
communicate it to the Officers. However, this argument likewise fails, given
that the question of whether probable cause existed is measured from the
time that the Officers took the actions in question. The fact that the Officers
did not first pause to interview neighbors before forcing entry only supports
their testimony that they believed someone inside the residence was in
imminent danger. The warrantless entry thus did not violate the Fourth
Amendment.
Therefore, in light of these facts, the court concludes that the Officers
had probable cause to believe that a crime was being committed inside
Plaintiffs’ residence because, based upon the totality of the circumstances,
a reasonable officer in their position would have perceived someone inside
Plaintiffs’ residence to be in need of immediate help. Thus, the court
concludes as a matter of law that probable cause and exigent circumstances
justified the warrantless entry into Plaintiffs’ home.
Having concluded that the Officers possessed reasonable suspicion to
detain Cost, Jr., probable cause to arrest Cost, Sr., and that probable cause
and exigent circumstances supported the warrantless entry, and thus that
there was no violations of Plaintiffs’ Fourth Amendment rights, their claims
for unlawful search and seizure, false imprisonment/false arrest, and
- 25 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 26 of 31

malicious prosecution fail as a matter of law. See Sheedy, 184 Fed.App'x at
284. Accordingly, summary judgment in favor of Defendants on Plaintiffs’
federal claims in Counts I, IV, and V is GRANTED.
2. Count II: Excessive Force
Defendants alone seek summary judgment on Count II, arguing that
the undisputed evidence of record shows that Plaintiffs were merely
handcuffed and placed on their knees by Officer Ranakoski immediately after
forcible entry into the residence was made. Defendants emphasize that Cost,
Jr.’s detention was particularly brief, since he was released promptly after he
identified himself. In light of these facts, Defendants argue that the de
minimus force used was objectively reasonable under the circumstances and
“cannot possibly be construed as [the use of] excessive force upon either
Plaintiff.” (Doc. 39, at 30).
Plaintiffs, by contrast, argue that Defendants used excessive force
because they were forced to their knees and handcuffed “for no reason since
they were sitting at their dining room table doing nothing illegal.” (Doc. 46, at
12). Plaintiffs contend that, because they were not doing anything threatening
when the Officers encountered them, any force used against them was, in
and of itself, excessive.

- 26 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 27 of 31

“The use of excessive force is itself an unlawful ‘seizure’ under the
Fourth Amendment.” Couden, 446 F.3d at 496. In deciding whether the
challenged conduct constitutes excessive force, “a court must determine the
objective reasonableness of the challenged conduct, considering the severity
of the crime at issue, whether the suspect poses an immediate threat to the
safety of the officer or others, and whether he is actively resisting arrest or
attempting to evade arrest by flight.” Id. at 496-97 (internal quotation marks
omitted). “Other factors include the duration of the [officer’s] action, whether
the action takes place in the context of effecting an arrest, the possibility that
the suspect may be armed, and the number of persons with whom the police
officers must contend at one time.” Id. at 497 (internal quotation marks
omitted).
In evaluating reasonableness, the court must take
into consideration the fact that “police officers are
often forced to make split-second judgments—in
circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is
necessary in a particular situation.” Thus, the court
should not apply “the 20/20 vision of hindsight,” but
should instead consider the “perspective of a
reasonable officer on the scene.”
Id. (quoting Graham v. Connor, 490 U.S. 386, 397 (1989)).
Here, the court will grant summary judgment in Defendants’ favor
because, in light of the undisputed material facts, Plaintiffs have not produced
- 27 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 28 of 31

evidence such that a reasonable jury could find that the Officers employed
unreasonable force. See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 25052 (1986). As discussed in depth above, the record reflects that, when the
Officers arrived, they were faced with a female yelling in distress in the
context of responding to a domestic dispute call. Upon encountering
Plaintiffs, the Officers had no way of knowing whether they were residents of
the house or strangers who had just broken in and harmed the residents, nor
could they have known whether there were additional suspects in the home.
The fact that the Officers had to contend with two suspects—the Plaintiffs—
in addition the possibility of unknown others strongly indicates that detaining
Plaintiffs with handcuffs was eminently reasonable.
Even if Plaintiffs could show that the Officers knew Plaintiffs were in
fact residents of the house, once again, the Officers had no way of knowing
whether they were armed or had just committed a violent crime against
someone else in the home.9 Thus, given these facts, the court finds that it
was objectively reasonable for Officers to neutralize the potential immediate
risk Plaintiffs posed to them by immobilizing Plaintiffs with handcuffs while a
Terry search of the remainder of the house was conducted.

9

In fact, Cost, Jr. did not identify himself until after he was handcuffed
and Cost, Sr. refused to identify himself until he was transported to the
processing center.
- 28 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 29 of 31

With respect to the duration of the force, Cost, Jr. was handcuffed only
briefly until he identified himself. Cost, Sr. refused to identify himself and,
after the Officers interviewed Rought, he was charged with disorderly
conduct, transported in handcuffs to the processing center for a suspect
identification, and released. The fact that the use of force here was merely
detention in handcuffs and was only as long as was necessary to neutralize
any threat in the house and to ascertain Plaintiffs’ identities, again strongly
suggests that the use of force was objectively reasonable. See Boardmand
v. City of Philadelphia, 661 Fed.App’x 183, 189-90 (3d Cir. 2016) (declining
to find that the court erred in instructing the jury that “handcuffing without
more does not constitute excessive force”). Accordingly, because all
pertinent factors in determining whether the use of force was excessive
weigh in favor of the objective reasonableness of the Officers’ actions, the
court finds that, in light of the evidence produced by Plaintiffs, no reasonable
jury would find that the use of force by the Officers against either Cost, Sr. or
Cost Jr. was objectively unreasonable under the circumstances such that it
could be considered excessive and a violation of the Fourth Amendment.
Therefore, summary judgment is GRANTED in favor of Defendants on Count
II.

- 29 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 30 of 31

3. Count VI: Inadequate Supervision and Training
With respect to Plaintiffs’ Count VI Monell claims against Dickson City
for failing to adequate train its officers as to the probable cause requirement
for arrest, since the court has found no violations of Plaintiffs’ constitutional
rights by either Officer Ranakoski or Officer McMorrow, summary judgment
in favor of Dickson City is GRANTED on this count. See Williams v. Borough
of West Chester, 891 F.2d 458, 467 (3d Cir. 1989) (In general, as a matter of
law, a Monell claim against a municipal defendant cannot proceed where
plaintiff has failed to show he suffered a constitutional violation.).10

4. Count III: Assault and Battery; Count IV: State Law False
Arrest and False Imprisonment
Because the court has entered summary judgment on all of Plaintiffs’
federal claims, it will decline to exercise supplemental jurisdiction over their
remaining state law claims in Count III for assault and battery and Count IV
10

In support, Plaintiffs cite another case before this court, Raj v.
Dickson City Borough, No. 17-0692, 2018 WL 571949, at *3-4 (M.D.Pa. Jan.
26, 2018) (denying a motion to dismiss), in which the plaintiff brings a Monell
claim against Dickson City. The merits of that case, however, were ultimately
decided against the plaintiff. More importantly, as Plaintiffs’ counsel should
be aware, allegations in a complaint are just that, allegations, until proven on
the merits. The mere fact Dickson City has previously been sued under the
same legal theory certainly does not stand for the proposition that Dickson
City “has a custom of illegally seizing people without probable cause or
reasonable suspicion,” as Plaintiffs contend. (Doc. 22, at 11-12).
- 30 -

Case 3:18-cv-01494-MEM Document 58 Filed 10/15/20 Page 31 of 31

for false arrest and false imprisonment, and these claims are DISMISSED
WITHOUT PREJUDICE. See 28 U.S.C. §1367(c)(3); Borough of W. Mifflin v.
Lancaster, 45 F.3d 780, 788 (3d Cir.1995) (“[W]here the claim over which the
district court has original jurisdiction is dismissed before trial, the district court
must decline to decide the pendent state claims unless considerations of
judicial economy, convenience, and fairness to the parties provide an
affirmative justification for doing so.”).
IV.

CONCLUSION
For the reasons set forth above, Plaintiffs’ Count I Fourteenth

Amendment claims are DISMISSED WITH PREJUDICE. Defendants’
motion for summary judgment, (Doc. 24), is GRANTED with respect to
Plaintiffs’ federal claims in Counts I, II, IV, V, and VI, and judgment is entered
in favor of Defendants and against Plaintiffs on these claims. Plaintiffs’ state
law claims against Defendants in Counts III, IV, and V are DISMISSED
WITHOUT PREJUDICE. Finally, Plaintiffs motion for summary judgment,
(Doc. 17), is DENIED. An appropriate order will issue.

s/ Malachy E. Mannion
MALACHY E. MANNION
United States District Judge
DATE: October 15, 2020
18-1494-02

- 31 -

APPENDIX C

Case: 20-3120

Document: 52

Page: 1

Date Filed: 07/06/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-3120
WILLIAM J. COST; WILLIAM J. COST, JR.,
Appellants
v.
BOROUGH OF DICKSON CITY; MICHAEL RANAKOSKI; MICHAEL
MCMORROW
(D.C. Civil Nos. 3-18-cv-01494, 3-18-cv-01510)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges and *ROBRENO, District Judge
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
_______________________
*The vote of Hon. Eduardo C. Robreno, who is sitting by designation, is limited to
panel rehearing only.

Case: 20-3120

Document: 52

Page: 2

Date Filed: 07/06/2021

panel and the Court en banc, is denied.
BY THE COURT,
s/Patty Shwartz
Circuit Judge
Date: July 6, 2021
CLW/cc: Cynthia L. Pollick, Esq.
Patrick J. Murphy, Esq.

